CERTIFICATE OF SERVICE
No. 19-974
William T. Schmitt, Chad Thompson, and Debbie Blewitt,

Petitioners,

Vv.

Frank LaRose. Ohio Secretary of State,
Respondent.

I, Mark R. Brown, do hereby certify that, on this 4h day of May, 2020, I
caused one copy of the Reply Brief of Petitioner in the foregoing case to be served
electronically and by first class mail, postage prepaid, on the following parties:

Benjamin Michael Flowers
Solicitor General
Ohio Attorney General Dave Yost
30 E. Broad St.
Columbus, OH 43215
benjamin.flowers@ohioattorneygeneral.gov

Yok He a
RK BROWN

CAPITAL UNIVERSITY LAW SCHOOL
303 E. Broad Street

Columbus, OH 43215

(614) 236-6590

Sidley Austin (DC) LLP is a Delaware limited liablity partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.
